CERTIFICATE OF SERVICE

No.

IN THE
SUPREME COURT OF THE UNITED STATES

ANTHONY T. GROSE, SR. - PETITIONER
vs.
STEVEN TERNER MNUCHIN, ET AL - RESPONDENT!SI
CERTIFICATE PROOF OF SERVICE
I, Anthony T. Grose, Sr., do swear or declare that on this date, November 20,2020,
as required by the U. S. Supreme Court Rule 29(5) (c), I have served the enclosed
PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing an
envelope containing the above documents in the United States mail or properly address to
each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
The Solicitor General of the United States
Room 56126
Department of the Justice
950 Pennsylvania Ave., N. W.
Washington, DC 20530-0001

Pursuant to 28 U.S.C. ~2403(a)(b);
and, 28 U.S.C. -4521

William BanOffice of the Attorney General
The United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

28

Monica Simmons-Jones
U. S. Attorney’s Office - Civil Division
167 North Main St. Suite 800
Memphis, TN 38103
(901)544-4230
Email: Monica. Simmons@usdoi. gov

Attorney of Record

Sixth Circuit Court of Appeals
Office of the Clerk
Cincinnati, OH 45202-3988

Notice Ref. Docket No. 18-5746

U. S. District Court
Western District of Tennessee
Office of the Clerk
167 North Main St Suite 200
Memphis, TN 38103

Notice Ref. 2:16-cv-02043-TLP-cgc

The Honorable, Steven Cohen
Congressman, Tennessee
9th District
Washington, DC Office ■
2104 Rayburn HOB
Washington, DC 20515
(202) 225-3265

Petitioner serves notice to his Representative
that this action lies against the United States
Requesting Congress authorized it.
- Member, House Committee on the Judiciary,
- Chairman, Subcommittee on the Constitution,
Civil Rights and Civil Liberties

Equal Employment Opportunity Commission
Office of Federal Operations (OFO)
In care of Director or Administrator in Charge
131N.E. Street N.E.
Washington, DC 20507
(202) 663-7022
Department of the Treasury
Office of Civil Rights and Diversity
Mariam G. Harvey, Director
1500 Pennsylvania Avenue, NW
Washington, DC 20220
(202) 622-0316
Mariam.Harvev@treasurv. gov
Enclosed is a check in the amount of $300.00 U. S. Gratuity Capital Funds,
Made Payable to Supreme Court of the United States for the Docketing a petition for
writ of Certiorari, jurisdictional statement, or original action case.

29

I declare under penalty of perjury that the foregoing is true and correct.
Executed on November 20,2020_

(Petitioner, Signature)

'A0

Notary
In the State of Tennessee
In the County of Shelby

__________ _
Dated:___
(Witness, Signature of Notary)

Seal of Notary

Anthony T. Grose, Sr.,
4192 Sable Dr.
Memphis, TN 38128
(901)210-2519

30

AFFIDAVIT
Appeal No. 18-5746
Civil Action No. 2:16:cv-2043-TLP-cgc
Based on the information available herein plaintiff asserts that, it is true and
correct to the best of Plaintiff s knowledge.
I, Anthony T. Grose, Sr., declare under penalty of perjury that the foregoing is true
and correct to the best of my knowledge and belief.

Anthony T. Grose, Sr.,
pro se. litigant November 20, 2020
Respectfully submitted

In the State of: TENNESSEE
In the County of: SHELBY

(Notary Signature)

(Date)

(Notary Seal)

31

